        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Reports
Selected Sub-grantees of the
Department of Energy's American
Recovery and Reinvestment Act –
Illinois State Energy Program




OAS-RA-13-19                               April 2013
                                  Department of Energy
                                    Washington, DC 20585

                                          April 30, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Reports on "Selected Sub-grantees of
                         the Department of Energy's American Recovery and Reinvestment Act
                         – Illinois State Energy Program"

BACKGROUND

The Department of Energy's (Department) State Energy Program (SEP) provides grants to states,
territories, and the District of Columbia to support their energy priorities and fund projects that
meet their unique energy needs. The American Recovery and Reinvestment Act of 2009
(Recovery Act) significantly expanded the SEP by providing an additional $3.1 billion. The
Illinois Department of Commerce and Economic Opportunity (DCEO) was allocated $101.3
million in Recovery Act SEP funds. DCEO allocated the funds to 8 separate programs funding
more than 138 projects. Otis and Associates, PC (Otis), an independent certified public
accountant firm, selected four sub-grantees to test their compliance with Federal and State laws,
regulations and program guidance. The four sub-grantees selected were Association of Illinois
Electric Cooperatives (AIEC); Bley, LLC (Bley); Funk Linko, Inc. (Funk Linko); and Abengoa
Bioenergy Operations, LLC (Abengoa).

The attached reports present the results of examinations of the selected sub-grantees' compliance
with Federal and State laws, regulations and program guidelines applicable to the SEP in the
State of Illinois (Illinois). The Office of Inspector General (OIG) contracted with Otis to
perform the examinations and express opinions on the sub-grantees' compliance.

RESULTS OF AUDIT

Otis expressed the opinion that except for the weaknesses described in its reports, each of the
sub-grantees complied in all material respects with the requirements and guidelines relative to
SEP. Regarding the areas of non-compliance, the examinations found that:

    •   AIEC did not adequately monitor member cooperatives to ensure delivery of energy
        efficiency upgrades or services performed for which rebates were issued;
                                                 2

    •   Bley did not comply with Recovery Act requirements to separately track costs and
        maximize competition in equipment purchases;

    •   Funk Linko did not properly account for its cost matching and maximize competition in
        equipment purchases; and

    •   Abengoa could not fully support that it had complied with Recovery Act requirements to
        separately identify costs, pay prevailing wages in accordance with the Davis-Bacon Act,
        and ensure competition in awarding subcontracts.

The reports included recommendations to the sub-grantees for improving the administration of
their SEP Programs. The sub-grantees provided comments to the reports and provided planned
and ongoing actions to address the issues identified. While corrective actions were generally
responsive to the recommendations, the Department needs to ensure the planned actions are
completed.

                            Funding Provided for Completed Projects

In addition to compliance issues identified at the sub-grantee level in Otis' examination reports,
we are concerned about Illinois' practice of providing Recovery Act funds to projects that had
already been completed. This issue was made apparent in the examination of Abengoa's sub-
grant of $2 million. Specifically, Abengoa had started its project in February 2009 and
completed the work in December 2009, long before the Recovery Act sub-grant agreement was
executed in April 2010. Based on data provided by the Department, we also noted three other
Illinois Recovery Act SEP projects, totaling $186,400 in funding, that appeared to be completed
prior to award of the related sub-grants. When we asked why Illinois was authorizing pre-award
costs, an Illinois official reported that selecting "shovel ready" projects or projects underway was
important and that there was not time to meet the deadlines if the projects were new. However,
in these cases, the projects were not underway, but appeared to be already completed. When
alerted to the concern about completed projects, the Department's Contracting Officer stated that
there was nothing in the legislation prohibiting Illinois from using Recovery Act funding for pre-
award costs. Although not expressly prohibited, we question whether providing funds for
completed projects met the intent of the Recovery Act to stimulate the economy and create or
save jobs.

RECOMMENDATIONS

As part of its responsibilities for managing the SEP, we recommend the Assistant Secretary for
Energy Efficiency and Renewable Energy:

    1. Require Illinois to improve administration of SEP funds by ensuring its sub-grantees
       implement the recommendations outlined in the attached examination reports; and

    2. Examine Illinois' use of Recovery Act funding of pre-award costs and completed
       projects and recover amounts not meeting the intent of the Recovery Act.
                                                 3

We also recommend that the Contracting Officer for the Illinois SEP Program:

    3. Resolve questioned costs of about $2 million related to the Abengoa sub-grant.

MANAGEMENT REACTION

The Department concurred with the recommendations and committed to implementing corrective
actions. In regard to our concern about Illinois' practice of providing Recovery Act funds to
projects that had already been completed, the Department responded that although the Abengoa
project was completed prior to execution of the sub-grant agreement in April 2010, the costs
were incurred during the allowable timeframe for the grant. Additionally, the Department stated
that the new ethanol plant was operational and providing efficient production of ethanol, which
addressed the intent of the legislation to reduce our dependence on foreign oil. Finally, the
Department stated that it had been assured by DCEO that all other projects were consistent with
the intent of the Recovery Act legislation and that the costs were incurred within the Recovery
Act timeframe. The Department's response is included in Attachment 5.

DCEO also submitted comments that generally concurred with the findings and
recommendations. In its response, DCEO stated that prior to issuing sub-grants, it had
determined that Recovery Act funding could legitimately be awarded for "shovel ready" projects
that started after the law was enacted. DCEO also pointed out that the Department had reviewed
and approved its sub-grants. DCEO's response is included in Attachment 5.

We found the Department and DCEO comments to be responsive to our recommendations.
However, after considering their responses, we remain concerned about Illinois' practice of
funding completed projects. The primary purposes of the Recovery Act include preserving and
creating jobs, promoting economic recovery, and providing investments in infrastructure that
would increase economic efficiency or provide long-term economic benefits. In our opinion,
reimbursing recipients for costs incurred on projects completed before grants were awarded does
not provide the economic stimulus the Recovery Act intended. Additionally, the term "shovel-
ready" inherently implies that projects are not already completed and are in need of funding to
move forward. The use of Recovery Act funds to reimburse recipients for projects already
completed reduced funds available for other projects that would have preserved or created jobs
or promoted economic recovery.

EXAMINATION-LEVEL ATTESTATION

Otis conducted its examinations in accordance with attestation standards established by the
American Institute of Certified Public Accountants, as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of the State's and
the sub-grantees' policies and procedures, and reviewing applicable SEP requirements. The
procedures also included a review of internal controls, as well as tests of appropriateness of cost
data, including travel expenditures, contractor and subcontractor charges and compliance with
the Davis-Bacon Act. Otis is responsible for the attached reports, dated April 18, 2013, and the
conclusions expressed in the reports.
                                               4

The OIG monitored the progress of the examinations and reviewed the reports and related
documentation. Our review disclosed no instances in which Otis did not comply, in all material
respects, with the attestation requirements. We coordinated with SEP management as the
examinations progressed to keep them informed of their progress. An exit conference with SEP
management was waived. An exit conference was held with DCEO on April 22, 2013.

Attachments

cc: Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
EXAMINATION REPORTS ON SELECTED SUB-GRANTEES OF THE
DEPARTMENT OF ENERGY'S AMERICAN RECOVERY AND
REINVESTMENT ACT – ILLINOIS STATE ENERGY PROGRAM
TABLE OF
CONTENTS


Attachment 1 - Association of Illinois Electric Cooperatives ............................................1

Attachment 2 - Bley, LLC ..................................................................................................11

Attachment 3 - Funk Linko, Inc. .........................................................................................22

Attachment 4 - Abengoa Bioenergy Operations, LLC .......................................................34

Attachment 5 - Management Comments ............................................................................50
                                                     Attachment 1




Report on Examination-Level Attestation Engagement

                          Of

     Association of Illinois Electric Cooperatives
     American Recovery and Reinvestment Act
               State Energy Program



   Performed for the U.S. Department of Energy,
           Office of Inspector General

                        Under

         Contract Number: DE-IG0000018
          Work Order Number: 2011-03

                          By


               Otis and Associates, PC


                    April 18, 2013




                         1
                                                                                                         Attachment 1 (continued)


                                    Association of Illinois Electric Cooperatives
                                                 Table of Contents

Section                                                                                                                        Page

I.     Independent Accountants' Report ...............................................................................3

II.    Background .................................................................................................................4

III.   Classification of Finding .............................................................................................6

IV. Summary of Finding ...................................................................................................7

V.     Material Weakness ......................................................................................................8

VI. Sub-Grantee's Response ............................................................................................10




                                                                   2
                                   Attachment 1 (continued)
SECTION I: INDEPENDENT ACCOUNTANTS' REPORT




                   3
                                                                        Attachment 1 (continued)
                               SECTION II: BACKGROUND


The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Recovery Act authorizes funding to various economic sectors and
Federal programs. The State Energy Program (SEP), under the U.S. Department of Energy
(Department), received $3.1 billion to achieve the purposes set forth in the Recovery Act,
including the preservation and creation of jobs, promotion of economic recovery, and the
reduction of energy consumption.

The SEP is a categorical formula grant program administered by the Department under a
regulatory framework laid out in 10 CFR 600.6(b) and 10 CFR Part 420, State Energy Program.
The Department's SEP objectives are as follows:

       •   Increase energy efficiency to reduce cost and consumption for consumers, businesses
           and government;
       •   Reduce reliance on imported energy;
       •   Improve the reliability of electricity and fuel supply and the delivery of energy
           services; and,
       •   Reduce the impact of energy production and use on the environment.

The Department's Office of Inspector General (OIG) contracted with Otis and Associates, PC, to
perform an Examination-Level Attestation Engagement on the Recovery Act's SEP services
provided by selected State of Illinois sub-grantees. The Association of Illinois Electric
Cooperatives (AIEC) is one of the four State of Illinois sub-grantees selected.

Under the Recovery Act, the State of Illinois received an allocation of $101,321,000 from the
Department for the SEP. The State of Illinois allocated this funding among eight different
programs. The "Electric Efficiency" Program was allocated $4,934,499 through the Illinois
Department of Commerce and Economic Opportunity (DCEO). This Program is to provide
incentives for projects that increase electric energy efficiency of Federal, state, and local
governments, schools, and other municipal facilities. Also, the Program provided grant funds to
non-investor owned utilities to develop and administer electric efficiency programs that benefit
customers or non-investor owned utilities. AIEC received $2,500,000 to provide home energy
efficiency improvement services to 28 electric cooperative customers serving nearly 300,000
homes, farms and businesses, based on energy assessments performed by and recommendations
made by the cooperatives, in the form of rebates to the customers for completing the
recommendations made in their energy assessment.

AIEC was organized in 1942 and is the service organization for member electric and telephone
cooperatives for the State of Illinois and its associate organizations. The AIEC mission is to
provide leadership, expertise, and unity of purpose in support of the cooperative utilities of the
State of Illinois and its efforts to improve the quality of life for its members.




                                                4
                                                                          Attachment 1 (continued)
                             SECTION II: BACKGROUND CONT.


The board of directors consists of 28 member cooperatives, representing each of its member-
systems, 25 electric distribution cooperatives and 3 power generation and transmission
cooperatives. One director is elected by and from the board of directors of each member-
cooperative. The six telephone cooperatives operating in Illinois are non-voting members of the
AIEC.

PROGRAM BUDGET PER GRANT AGREEMENT

                              Initial Approved            Budget          Modified
 Budget Description
                                   Budget               Modification   Approved Budget
 Administration                       $ 75,000            $    25,000        $ 100,000
 Purchase of Services                 $ 25,000            $          0       $ 25,000
 Equipment/Material Cost              $1,400,000          $ 975,000          $2,375,000
 Cash Match                           $ 375,000           $ 250,000          $ 625,000
                     Total            $1,875,000          $1, 250,000        $3,125,000


PROGRAM EXPENDITURES AS OF SEPTEMBER 30, 2011

 Expense Category                                  Amount
 Administration                                       $ 79,530
 Purchase of Services                                 $ 12,856
 Equipment/Material Costs                             $2,423,345
 Cash Match                                           $ 665,150
                                 Total                $3,180,881


PROGRAM REIMBURSEMENTS AS OF SEPTEMBER 30, 2011

                                                           Grant              Grant
 Grant Award Number              Amount
                                                       Effective Date    Completion Date
 DE-EE0000119                     $2,466,488           January 1, 2010   December 31, 2011




                                                   5
                                                                        Attachment 1 (continued)
                      SECTION III: CLASSIFICATION OF FINDING


Material Weakness

A material weakness is a significant deficiency, or combination of significant deficiencies, that
result in more than a remote likelihood that a material misstatement of the subject matter will not
be prevented or detected.

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
would adversely affect AIEC's ability to initiate, authorize, record, process, or report data
reliably, in accordance with the applicable criteria or framework, such that there is more than a
remote likelihood that a misstatement of the subject matter that is more than inconsequential will
not be prevented or detected. There are no findings in our report classified as a significant
deficiency.

Advisory Comment

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect AIEC's ability to record, process, summarize, and report
data reliably. There are no findings in our report classified as an advisory comment.




                                              6
                                                               Attachment 1 (continued)
                      SECTION IV: SUMMARY OF FINDING

Finding 1:   Inadequate monitoring of member cooperatives to ensure delivery of energy
             efficiency upgrades or services performed for which rebates were issued −
             Material Weakness.




                                        7
                                                                        Attachment 1 (continued)
                            SECTION V: MATERIAL WEAKNESS


Finding 1:     Inadequate monitoring of member cooperatives to ensure delivery of energy
               efficiency upgrades or services performed for which rebates were issued −
               Material Weakness.

Condition

AIEC did not adequately monitor its member cooperatives to ensure that rebate recipients
actually installed or performed the services for which they received rebates. Our review of
sample rebate payments made by AIEC to Corn Belt Energy Corporation, a member cooperative,
for its customers, showed that neither AIEC nor Corn Belt Energy Corporation had performed
any site visits to ascertain that equipment paid for was purchased and installed, as represented by
the customers. Further, until our review, AIEC was unaware that Corn Belt, in some cases, had
issued rebates based on estimated expenditures for energy savings measures. Our interview of
the AIEC's Vice President of Operations also indicated that AIEC did not ensure its 25 member
cooperatives, that issued rebates totaling approximately $2,423,345, certified that rebate
recipients actually purchased and installed equipment or performed the services for which they
received rebates. AIEC's management indicated that they visited a few cooperatives, but did not
maintain any documentation on the visits or nature of the services performed and date services
were completed.

In accordance with the Grant Agreement Part II, Scope of Work, the grantee is required to
provide rebates for energy efficiency upgrades and oversee responsibility for monitoring projects
and certifying that work is completed by qualified providers.

Cause

AIEC did not have a procedure to monitor the quality of work performed, and ensure that
services for which rebates were issued were actually performed. AIEC management indicated
that it will develop a procedure.

Effect

As a result of the condition noted above, AIEC and its member cooperatives may have paid for
equipment and services that were not purchased or performed by the customers.

Recommendation:

1.1 We recommend that the management of AIEC develop procedures to adequately monitor the
    activities of its member cooperatives.




                                              8
                                                                    Attachment 1 (continued)
                       SECTION V: MATERIAL WEAKNESS CONT.


Management Comments and Auditors' Analysis:

AIEC's management concurred with the finding and recommendation and stated that it had
subsequently verified, through its member cooperatives, that work had actually been completed
on a sample of rebates. The verification test work did not find any exceptions.

We consider AIEC's management action to be adequate.




                                            9
                                      Attachment 1 (continued)
SECTION VI: SUB-GRANTEE'S RESPONSE (FULL TEXT)




                    10
                                                     Attachment 2




Report on Examination-Level Attestation Engagement

                        Of

                   Bley, LLC
     American Recovery and Reinvestment Act
             State Energy Program



   Performed for the U.S. Department of Energy,
           Office of Inspector General

                      Under

         Contract Number: DE-IG0000018
          Work Order Number: 2011-03

                        By


              Otis and Associates, PC



                  April 18, 2013




                       11
                                                                                                        Attachment 2 (continued)
                                                           Bley, LLC
                                                        Table of Contents

Section                                                                                                                       Page

I.     Independent Accountants' Report .............................................................................13

II.    Background. ..............................................................................................................14

III.   Classification of Findings .........................................................................................16

IV. Summary of Findings ................................................................................................17

V.     Significant Deficiencies ............................................................................................18

VI. Sub-Grantee's Response ............................................................................................21




                                                                 12
                                   Attachment 2 (continued)


SECTION I: INDEPENDENT ACCOUNTANTS' REPORT




                  13
                                                                      Attachment 2 (continued)
                               SECTION II: BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Recovery Act authorizes funding to various economic sectors and
Federal programs. The State Energy Program (SEP), under the U.S. Department of Energy
(Department), received $3.1 billion to achieve the purposes set forth in the Recovery Act,
including the preservation and creation of jobs, promotion of economic recovery, and reducing
energy consumption.

The SEP is a categorical formula grant program administered by the Department under a
regulatory framework laid out in 10 CFR 600.6(b) and 10 CFR Part 420, State Energy Program.
The Department's SEP objectives are as follows:

           •   Increase energy efficiency to reduce cost and consumption for consumers,
               businesses and government;
           •   Reduce reliance on imported energy;
           •   Improve the reliability of electricity and fuel supply and the delivery of energy
               services; and,
           •   Reduce the impact of energy production and use on the environment.

The Department's Office of Inspector General (OIG), contracted with Otis and Associates, PC, to
perform an Examination Level Attestation Engagement on the Recovery Act's SEP services
provided by the State of Illinois sub-grantees. Bley, LLC (Bley), was one of the four State of
Illinois sub-grantees selected.

Under the Recovery Act, the State of Illinois received an allocation of $101,321,000 from the
Department for the SEP. The State of Illinois allocated this funding among eight different
programs. The "Green Industry Business Development" Program was allocated $47,240,284
through the Illinois Department of Commerce and Economic Opportunity (DCEO). This
Program is for Illinois-based manufacturing companies to implement projects that reduce carbon
emissions and increase renewable energy. Bley was awarded $5,000,000 under this Program,
which required Bley to provide a matching cost of approximately $8,185,600. The project was
scheduled to be completed on January 31, 2012.

Bley was founded in 1966, and specializes in providing state-of-the-art technology in machining;
computer numerical controlled machining and machine building. Additionally, Bley provides
engineering and design services with a specialization in large high-precision products. Bley
serves the aerospace, renewable energy, oil and gas, heavy transportation, mining, defense,
construction, packaging, and medical industries. Using the Recovery Act funds, Bley installed
new state-of-the-art equipment for utility scale wind turbine components. This equipment
enables Bley to increase its current capacity of, approximately 1.5 megawatt turbines, to
4.5 megawatt turbines.




                                             14
                                                            Attachment 2 (continued)
                       SECTION II: BACKGROUND CONT.


PROJECT BUDGET PER GRANT AGREEMENT

Budget Description                      Amount
Equipment/Material Costs                  $ 5,000,000
Cash Match                                $ 8,185,600
                           Total          $13,185,600


PROJECT EXPENDITURES AS OF SEPTEMBER 30, 2011

Expense Category                        Amount
Equipment/Material Costs                   $4,986,289
Cash Match                                 $3,579,879
                           Total           $8,566,168


PROGRAM REIMBURSEMENTS AS OF SEPTEMBER 30, 2011

                                            Grant              Grant
Grant Award Number         Amount
                                        Effective Date    Completion Date
DE-EE0000119                $4,878,462 February 1, 2010   January 31, 2012




                                     15
                                                                           Attachment 2 (continued)
                      SECTION III: CLASSIFICATION OF FINDINGS

Material Weakness

A material weakness is a significant deficiency, or combination of significant deficiencies, that
result in more than a remote likelihood that a material misstatement of the subject matter will not
be prevented or detected. There are no findings in our report classified as a material weakness.

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
would adversely affect Bley's ability to initiate, authorize, record, process, or report data reliably,
in accordance with the applicable criteria or framework, such that there is more than a remote
likelihood that a misstatement of the subject matter that is more than inconsequential will not be
prevented or detected.

Advisory Comment

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect Bley's ability to record, process, summarize, and report
data reliably. There are no findings in our report classified as an advisory comment.




                                                16
                                                                     Attachment 2 (continued)
                       SECTION IV: SUMMARY OF FINDINGS


Finding 1:   Recipient did not separately track Recovery Act costs - Significant Deficiency

Finding 2:   Equipment was purchased without competition - Significant Deficiency




                                           17
                                                                       Attachment 2 (continued)
                        SECTION V: SIGNIFICANT DEFICIENCIES

Finding 1:    Recipient did not separately track Recovery Act costs - Significant Deficiency

Condition

Bley did not establish a separate account code to segregate Recovery Act revenue and
expenditures, as required. The company's general ledger and chart of accounts had not been
modified to ensure Recovery Act costs were separated from other costs incurred. Further, Bley's
timekeeping records did not identify and segregate Recovery Act hours worked from time spent
on other projects. When we requested documentation supporting Recovery Act expenditures,
Bley developed a spreadsheet detailing costs incurred for labor and materials. To develop the
spreadsheet, Bley examined prior transactions, traced them to supporting documents such as
invoices, receipts, and timecards, and identified costs incurred that directly related to the
Recovery Act. We reviewed the spreadsheet and the allocations for reasonableness, as well as a
sample of costs incurred, and found no exceptions.

Part VI-B-6.5 of the grant agreement, Segregation of Funds and Costs, states that the grantee
must segregate the obligations and expenditures related to funding under the Recovery Act. The
grantee must have a financial and accounting system that segregates, tracks, and maintains the
Recovery Act funds separate and apart from other revenue streams. No part of the funds from
the Recovery Act are allowed to be co-mingled with any other funds or used for a purpose other
than making payments for costs allowable for Recovery Act projects. Recovery Act funds may
be used in conjunction with other funding sources as necessary to complete projects, but tracking
and reporting must be separate to comply with the law and Office of Management and Budget
guidance.

Cause

Even though it was stipulated in the grant agreement, Bley's management stated that it was not
aware of the requirement track and record Recovery Act funds separately.

Effect

As a result of the condition noted above, the transparency required under the Recovery Act was
not achieved.

Recommendation:

1.1 We recommend that the management of Bley create a special accounting code for all
    Recovery Act grant-related activities.




                                             18
                                                                           Attachment 2 (continued)
                   SECTION V: SIGNIFICANT DEFICIENCIES CONT.


Management Response and Auditors' Analysis:

Bley's management concurred with the findings and recommendation, and stated that it will
establish separate accounting codes that will clearly distinguish the activities of future federal
and state grants.

We consider Bley's management action to be adequate.




                                               19
                                                                        Attachment 2 (continued)
                   SECTION V: SIGNIFICANT DEFICIENCIES CONT.

Finding 2:     Equipment was purchased without competition - Significant Deficiency

Condition

During our procurement review, we noted that Bley had purchased nine pieces of equipment,
totaling about $2.8 million, without the benefit of competition and without justifying why
soliciting bids was not practical.

The Recovery Act provisions, which were incorporated in the grant agreement by reference,
required grantees to competitively award contracts financed with Recovery Act funds to the
maximum extent practicable. Bley's procedures allowed for less than full competition provided
that a justification was documented in the file.

Cause

Bley management stated that it did not use competition because the equipment acquired was of
special design and manufactured by very few companies. Also, Bley stated that some equipment
had to be purchased from companies authorized to serve designated jurisdictions. While these
appear to be reasonable justifications, Bley did not document the justifications at the time
purchase decisions were made as required by its procedures.

Effect

As a result of the condition noted above, there is a risk that Bley did not get the best values for
the equipment.

Recommendation:

2.1 We recommend that the management of Bley follow the Recovery Act guidance on
    competition when purchasing equipment.

Management Response and Auditors' Analysis:

Bley's management concurred with the findings and recommendation. Bley stated that they
would document their selection methods, identify the requirements and evaluation factors, and
summarize their negotiations with vendors.

We consider Bley's management action to be adequate.




                                              20
                                      Attachment 2 (continued)
SECTION VI: SUB-GRANTEE'S RESPONSE (FULL TEXT)




                    21
                                                     Attachment 3




Report on Examination-Level Attestation Engagement


                        Of


                Funk Linko, Inc.
     American Recovery and Reinvestment Act
             State Energy Program



   Performed for the U.S. Department of Energy,
           Office of Inspector General

                      Under


         Contract Number: DE-IG0000018
          Work Order Number: 2011-03

                        By


              Otis and Associates, PC


                  April 18, 2013




                       22
                                                                                                        Attachment 3 (continued)
                                                        Funk Linko, Inc.
                                                        Table of Contents

Section                                                                                                                       Page

I.     Independent Accountants' Report .............................................................................24

II.    Background. ..............................................................................................................25

III.   Classification of Findings .........................................................................................27

IV. Summary of Findings ................................................................................................28

V.     Material Weakness ....................................................................................................29

VI. Significant Deficiency ..............................................................................................31

VII. Sub-Grantee's Response ............................................................................................32




                                                                 23
                                   Attachment 3 (continued)
SECTION I: INDEPENDENT ACCOUNTANTS' REPORT




                  24
                                                                        Attachment 3 (continued)
                               SECTION II: BACKGROUND


The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Recovery Act authorizes funding to various economic sectors and
Federal programs. The State Energy Program (SEP), under the U.S. Department of Energy
(Department), received $3.1 billion to achieve the purposes set forth in the Recovery Act,
including the preservation and creation of jobs, promotion of economic recovery, and reducing
energy consumption.

The SEP is a categorical formula grant program administered by the Department under a
regulatory framework laid out in 10 CFR 600.6(b) and 10 CFR Part 420, State Energy Program.
The Department's SEP objectives are as follows:

          •   Increase energy efficiency to reduce cost and consumption for consumers,
              businesses and government;
          •   Reduce reliance on imported energy;
          •   Improve the reliability of electricity and fuel supply and the delivery of energy
              services; and,
          •   Reduce the impact of energy production and use on the environment.

The Department's Office of Inspector General (OIG) contracted with Otis and Associates, PC, to
perform an Examination-Level Attestation Engagement on the Recovery Act's SEP services
provided by the State of Illinois sub-grantees. Funk Linko, Inc. (Funk Linko) was one of the
four State of Illinois sub-grantees selected.

Under the Recovery Act, the State of Illinois received an allocation of $101,321,000 from the
Department for the SEP. The State of Illinois allocated this funding among eight different
programs. The "Green Industry Business Development" Program was allocated $47,240,284
through the State of Illinois Department of Commerce and Economic Opportunity (DCEO). This
Program is for State of Illinois based manufacturing companies to implement projects that
improve energy efficiency in their operations. Funk Linko was awarded $5 million under this
Program, which required Funk Linko to provide a matching cost of approximately $5 million.
Funk Linko partnered with National Railway Equipment Corporation and Microtech Machine
Company, Inc. to purchase and install equipment that will be used in the production of low
emission, energy efficient rail locomotives and components for wind power generation. The
project was scheduled to be completed on January 31, 2012.

Funk Linko, formerly Funk Forging, was founded in 1925. Funk Linko is a woman- and
minority-owned enterprise, and one of the leading manufacturers of sign poles, lighting poles,
and undercarriages for locomotives. Funk Linko also specializes in steel fabrication
manufacturing, and produces specialized steel products for major oil companies in the United
States and overseas. Since 1925, Funk Linko has designed and manufactured lighting and sign
posts for a variety of industries and commercial uses. Recently, Funk Linko began focusing its
business on fabrication of under-frames and components for energy efficiency railway products,
as well as small to middle size wind turbine towers.


                                             25
                                                      Attachment 3 (continued)
                       SECTION II: BACKGROUND CONT.


PROJECT BUDGET PER GRANT AGREEMENT

Budget Description                  Amount
Equipment/Material Costs              $ 5,000,000
Cash Match                            $ 5,027,000
Total                                 $10,027,000


PROJECT EXPENDITURES AS SEPTEMBER 30, 2011

Expense Category                    Amount
Equipment/Material Costs               $4,767,326
Cash Match                             $3,341,687
Total                                  $8,109,013




                                  26
                                                                         Attachment 3 (continued)
                     SECTION III: CLASSIFICATION OF FINDINGS


Material Weakness

A material weakness is a significant deficiency, or combination of significant deficiencies, that
result in more than a remote likelihood that a material misstatement of the subject matter will not
be prevented or detected.

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
would adversely affect Funk Linko's ability to initiate, authorize, record, process, or report data
reliably, in accordance with the applicable criteria or framework, such that there is more than a
remote likelihood that a misstatement of the subject matter that is more than inconsequential will
not be prevented or detected.

Advisory Comment

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect Funk Linko's ability to record, process, summarize, and
report data reliably. There are no findings in our report classified as an advisory comment.




                                              27
                                                                    Attachment 3 (continued)
                      SECTION IV: SUMMARY OF FINDINGS


Finding 1:   Matching costs were not properly supported - Material Weakness

Finding 2:   Inadequate documentation evidencing sufficient competition - Significant
             Deficiency




                                          28
                                                                         Attachment 3 (continued)
                           SECTION V: MATERIAL WEAKNESS


Finding 1:     Matching costs were not properly supported - Material Weakness

Condition

Our review of costs incurred by Funk Linko and its teaming partners indicated noncompliance
with State of Illinois' (Illinois) grant provisions requiring matching fund contributions of about
50 percent ($5 million) of estimated project funding. The Department waived a cost share
requirement for the State Energy Program, but encouraged State recipients to develop plans
involving a high degree of leveraging. Illinois accomplished this leveraging by requiring, for
example, Funk Linko to provide a cost match. Although Funk Linko represented that it provided
$3.3 million in matching funds as of September 30, 2011, the company did not have
documentation to support the amount claimed.

At our request, Funk Linko gathered documentation reportedly supporting some of the matching
contributions claimed. Specifically, the company provided invoices for $1.1 million of the $3.3
million claimed. Of the $1.1 million, we identified $842,000 in questionable costs. For
example, we found costs unrelated to the grant, including a loan to a third party of approximately
$185,000; rent payments of approximately $309,000 to a third party; and, payments on a lease
for a BMW automobile totaling nearly $15,000. Matching fund contributions are important to
ensure recipients are fully invested in the success of their projects and Federal funds are
leveraged to the maximum extent practicable. The grant agreement states that the cash match
must include expenditures directly related to the project. Also, Federal regulations require that
such costs be necessary and reasonable for the proper and efficient accomplishment of the
project or program objectives.

Cause

Funk Linko's management stated that it was not aware of the requirement to account for
matching costs prior to the expiration of the grant agreement; and therefore, had not adequately
tracked the matching costs claimed by teaming partners to ensure compliance with the terms and
conditions of the grant. Despite the fact that it had already reported matching costs to the State,
management requested that an audit of the costs be delayed until the expiration of the grant
agreement. Additionally, although Funk Linko gathered documentation from its teaming
partners to respond to our request for cost match support, Funk Linko officials stated that they
did not review the documentation provided by the partners to ensure that the costs were
reasonable and allocable to the project.

Effect
Unsupported matching costs claimed increase the risk of fraud, waste and abuse. As a result of
the condition noted above, we questioned the $3 million in matching costs we identified as
unrelated to the grant or unsupported. Further, we questioned the corresponding level of




                                              29
                                                                        Attachment 3 (continued)
                      SECTION V: MATERIAL WEAKNESS CONT.


Recovery Act funding claimed by Funk Linko and its teaming partners, since cost matching the
Recovery Act funding was a condition of the Illinois' agreement with its sub-recipients.

As a result of our audit, Funk Linko officials worked with the State to resolve cost match issues.
Although the State disallowed certain costs, such as the costs related to the loan, rent, and BMW,
the State accepted costs sufficient to satisfy the project's cost match requirement.

Recommendation:

1.1 We recommend that Funk Linko develop a process to ensure that it adequately documents
    any cash match reported on Federal and State grants.

Management Comments and Auditors' Analysis:

Funk Linko concurred with the recommendation and stated it has instituted a policy to maintain
full documentation of match expenditures with a quarterly review of such documentation.

We consider Funk Linko's response to be adequate.




                                             30
                                                                       Attachment 3 (continued)
                       SECTION VI: SIGNIFICANT DEFICIENCY


Finding 2:    Inadequate documentation evidencing sufficient competition - Significant
              Deficiency

Condition

During our review of Funk Linko's procurement process, we noted that the company had
purchased equipment from firms in the amount of $2,355,392 without documenting that it had
obtained the best price. Contrary to Recovery Act provisions incorporated by reference in the
grant agreement, the company had not ensured competition to the maximum extent practical.
Specifically, Funk Linko had neither solicited bids nor justified why soliciting bids was not
practical. Funk Linko officials stated that they purchased equipment at the best available price
since they negotiated the price directly with the vendors. Management also noted that some of
the equipment purchased was of a special design available only from limited sources. However,
we were unable to verify these claims given the lack of documentation, including required cost
price analyses or a sole source justification.

Cause

Even though it was stipulated in the grant agreement, Funk Linko's management stated that they
were not aware of the Recovery Act requirement to maximize competition to the maximum
extent practical.

Effect

As a result of the condition noted above, Funk Linko could not demonstrate that best value was
received for the equipment purchased with Recovery Act funds.

Recommendation:

2.1 We recommend that Funk Linko's management ensure compliance with Federal
    procurement policies.

Management Response and Auditors' Analysis:

Funk Linko concurred with the recommendation and stated it has implemented a policy to
maintain full documentation of competitive bids for grant equipment purchased with Federal
funds with a quarterly review of such documentation.

We consider Funk Linko's response to be adequate.




                                             31
                                       Attachment 3 (continued)
SECTION VII: SUB-GRANTEE'S RESPONSE (FULL TEXT)




                     32
                                          Attachment 3 (continued)
SECTION VII: SUB-GRANTEE'S RESPONSE (FULL TEXT) CONT.




                        33
                                                     Attachment 4




Report on Examination-Level Attestation Engagement


                        Of


      Abengoa Bioenergy Operations, LLC
     American Recovery and Reinvestment Act
             State Energy Program



   Performed for the U.S. Department of Energy,
           Office of Inspector General

                      Under

         Contract Number: DE-IG0000018
          Work Order Number: 2011-03

                        By


              Otis and Associates, PC


                  April 18, 2013




                       34
                                                                                                        Attachment 4 (continued)
                                         Abengoa Bioenergy Operations, LLC
                                                 Table of Contents

Section                                                                                                                       Page

I.     Independent Accountants' Report .............................................................................36

II.    Background ...............................................................................................................37

III.   Classification of Finding ...........................................................................................39

IV. Summary of Finding .................................................................................................40

V.     Material Weakness ....................................................................................................41

VI. Sub-Grantee's Response ............................................................................................44




                                                                 35
                                   Attachment 4 (continued)
SECTION I: INDEPENDENT ACCOUNTANTS' REPORT




                    36
                                                                        Attachment 4 (continued)
                               SECTION II: BACKGROUND


The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Recovery Act authorizes funding to various economic sectors and
Federal programs. The State Energy Program (SEP), under the U.S. Department of Energy
(Department), received $3.1 billion to achieve the purposes set forth in the Recovery Act,
including the preservation and creation of jobs, promotion of economic recovery, and reducing
energy consumption.

The SEP is a categorical formula grant program administered by the Department under a
regulatory framework laid out in 10 CFR 600.6(b) and 10 CFR Part 420; State Energy Program.
The Department's SEP objectives are as follows:

           •   Increase energy efficiency to reduce cost and consumption for consumers,
               businesses and government;
           •   Reduce reliance on imported energy;
           •   Improve the reliability of electricity and fuel supply and the delivery of energy
               services; and,
           •   Reduce the impact of energy production and use on the environment.

The Department's Office of Inspector General (OIG) contracted with Otis and Associates, PC, to
perform an Examination-Level Attestation Engagement on the Recovery Act's SEP services
provided by the State of Illinois sub-grantees. Abengoa Bioenergy Operations, LLC (Abengoa)
was one of the four State of Illinois sub-grantees selected.

Under the Recovery Act, the State of Illinois received an allocation of $101,321,000 from the
Department for the SEP. The State of Illinois allocated this funding among eight different
programs. The "Large Customer Energy Efficiency" Program was allocated $15,977,973
through the State of Illinois Department of Commerce and Economic Opportunity (DCEO). This
Program is to implement cost effective natural gas and other thermal efficiency measures at the
State of Illinois industries and other large energy users. Abengoa was awarded $2,000,000 under
this Program, which required Abengoa to provide a matching cost of approximately $10,150,296
for the installation of energy efficiency measures into the company's new ethanol plant located in
Madison, Illinois. The project was completed in December 2009.




                                               37
                                                               Attachment 4 (continued)
                       SECTION II: BACKGROUND CONT.


PROJECT BUDGET PER GRANT AGREEMENT

Budget Description                   Amount
Purchase of Services                  $ 1,400,000
Equipment/Material Costs              $ 600,000
Cash Match                            $10,150,296
                           Total      $12,150,296


PROJECT EXPENDITURES AS OF JUNE 30, 2011

Expense Category                     Amount
Purchase of Services                  $ 1,400,000
Equipment/Material Costs              $ 600,000
Cash Match                            $12,301,300
                           Total      $14,301,300


PROGRAM REIMBURSMENTS AS OF JUNE 30, 2011

                                                  Grant            Grant
Grant Award Number             Amount         Effective Date   Completion Date
DE-EE0000119                    $2,000,000    April 19, 2010     Dec. 1, 2011




                                         38
                                                                        Attachment 4 (continued)
                      SECTION III: CLASSIFICATION OF FINDING


Material Weakness

A material weakness is a significant deficiency, or combination of significant deficiencies, that
result in more than a remote likelihood that a material misstatement of the subject matter will not
be prevented or detected.

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
would adversely affect Abengoa's ability to initiate, authorize, record, process, or report data
reliably, in accordance with the applicable criteria or framework, such that there is more than a
remote likelihood that a misstatement of the subject matter that is more than inconsequential will
not be prevented or detected. There are no findings in our report classified as a significant
deficiency.

Advisory Comment

For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect Abengoa's ability to record, process, summarize, and
report data reliably. There are no findings in our report classified as an advisory comment.




                                                39
                                                                Attachment 4 (continued)
                      SECTION IV: SUMMARY OF FINDING


Finding 1:   Noncompliance with Recovery Act requirements – Material Weakness




                                          40
                                                                         Attachment 4 (continued)
                          SECTION V: MATERIAL WEAKNESS


Finding 1:     Noncompliance with Recovery Act requirements – Material Weakness

Condition

Abengoa could not fully support that it had complied with requirements of its grant from the
State of Illinois (State) to separately identify Recovery Act costs and pay prevailing wage rates
to laborers. Further, Abengoa had not always solicited bids to ensure competition as required.
Specifically, Abengoa:

    • Had not separately accounted for Recovery Act costs incurred and claimed, as required
      under the terms and conditions of the grant. We noted that as of February 2010, Abengoa
      had claimed reimbursement for $2 million of the $12 million in costs reportedly incurred
      for its grant-funded project, but had not discretely segregated Recovery Act costs. While
      Recovery Act funds can be used in conjunction with other funding sources as necessary
      to complete projects, tracking and reporting must be separate to meet the reporting
      requirements of the Recovery Act and Office of Management and Budget guidance.
      Separate accounting is important to ensure compliance with Recovery Act provisions
      such as paying prevailing wages under the Davis-Bacon Act (Act) and ensuring free and
      open competition for goods and services purchased.

    • Had not provided certified payroll information to verify that wages paid to laborers
      complied with the Act, as contractually required. Consequently, we were unable to
      determine if the rates paid to laborers and mechanics were in compliance with the Act.
      The Recovery Act requires that all laborers and mechanics employed by contractors and
      subcontractors be paid wages at rates not less than those prevailing on projects of a
      character similar in the locality as determined by the Secretary of Labor. Based on its
      knowledge of union agreements, Abengoa management believes that its contractor and
      subcontractors paid prevailing wage rates. However, management was unable to provide
      any evidence to support that contention, such as a comparison of payroll information to
      prevailing wage rates.

    • Had not always solicited bids to ensure competition or obtained approval for agreements
      with subcontractors as required. Abengoa awarded a contract to an affiliate, Abener, a
      company which in turn awarded five subcontracts without soliciting bids. The Recovery
      Act requires agencies to comply with laws and regulations governing the award of
      procurement contracts, including maximizing competition to the extent practicable in
      accordance with the Competition in Contracting Act of 1984. Furthermore, Abengoa did
      not obtain written approval from the State's project manager prior to entering into
      subcontractor agreements, as required by the terms and conditions of the grant.




                                                41
                                                                         Attachment 4 (continued)
                      SECTION V: MATERIAL WEAKNESS CONT.

Cause

The lack of support for compliance was caused, in large part, by the fact that the State had
awarded the grant to Abengoa on April 26, 2010, long after the company had completed the
entire project. Abengoa started the grant-related work in February of 2009 and completed it in
December 2009. In fact, the company was allowed to claim costs incurred over a year prior to
the execution of the agreement. Consequently, officials were reportedly not aware of Recovery
Act requirements at the time they incurred the costs. In addition, Abengoa management stated
that it had selected the project contractor and subcontractors prior to submitting a grant
application to the State of Illinois. Additionally, although Abengoa entered into the grant for
work that was already completed, it did not request waivers from DCEO on those terms and
conditions for which it had not previously complied. Additionally, Abengoa officials faulted
their subcontractor for awarding subcontracts without competition.

Effect

As a result of the condition noted above, Abengoa was unable to adequately support costs
claimed and charged to the grant totaling $2 million, undermining the praiseworthy goals that
recipients of Recovery Act funds be fully accountable for funds awarded and that the expenditure
of funds be transparent to the public. Further, Abengoa's failure to ensure adequate competition
and compliance with the Davis-Bacon Act prevailing wage rates increased the risk that costs
were not reasonable and that contractors and subcontractors' employees were underpaid.
Consequently, we question $2 million in costs claimed.

Recommendations:

While the project was completed and all funds have been spent, Abengoa should retro-actively
prove it complied with the requirements to separately account for its use of Recovery Act funds
and pay prevailing wage rates. Accordingly, we recommend that Abengoa officials provide:

1.1 Documentation that specifically identifies the costs funded by the grant to support the
    reasonableness of costs claimed or refund $2 million to the Department through the State.

1.2 Payroll records for all contractor and subcontractors' personnel charged to the grant for the
    State to review and ensure compliance with the Act.

We did not include recommendations to compete its subcontracts and obtain prior approval for
them because it was not plausible to meet these requirements since Abengoa had awarded the
subcontracts and completed the project prior to the grant award.




                                                42
                                                                        Attachment 4 (continued)
                      SECTION V: MATERIAL WEAKNESS CONT.


Management Response and Auditors' Analysis:

Abengoa, in its written response, did not concur with the finding but agreed to implement the
recommendations to provide additional cost detail and certified payroll information. Abengoa
believes that it materially complied with the terms and conditions of the grant. Specifically,
Abengoa's response stated that it provided adequate supporting documentation for claimed costs
to the auditors; competitively bid subcontractor work routinely; and, paid prevailing wages to its
laborers and mechanics, and those of its subcontractors. Abengoa acknowledged that it was
engaged in the project and incurred the costs prior to being subject to the Recovery Act
requirements within the grant agreement, and therefore, due to the timing of the award, it could
not comply with all the terms and conditions. As stated in the report, Abengoa remarked that the
State's Department of Commerce and Economic Opportunity (DCEO) knew the work was
completed and permitted it to claim costs incurred over a year prior to execution of the grant
agreement. Abengoa commented that it supported the goals of the Recovery Act and made
significant contributions toward those goals. Management's verbatim comments are attached.

Abengoa's response failed to demonstrate compliance with the terms and conditions of the grant
for the following reasons:

    • Abengoa did not provide separate invoices supporting item costs claimed as required by
      the Recovery Act. The documentation previously provided and included with the written
      response were allocations of total project costs.

    • Abengoa did not provide evidence that it or its contractors competitively awarded
      subcontracts or obtained advanced approval of its subcontracts from the State of Illinois
      Project Manager. As acknowledged, it completed the work before the grant was
      awarded.

    • Abengoa did not provide any certified payroll records to support its claim that prevailing
      wages were paid to laborers and mechanics. Instead, the support Abengoa provided for
      complying with the Act were letters from its subcontractors stating that wages paid to
      laborers and mechanics were equal or greater than the prevailing Davis-Bacon Act wages
      in their jurisdiction.

Subsequent to providing its formal response to the report, Management informed us that it had
begun implementing the recommendations. With respect to Recommendation 1.2, Management
stated that it had subsequently submitted payroll records to the State and based on preliminary
indications, Abengoa concluded that it appeared to be in compliance with the Davis-Bacon Act.
Our review of the submitted documentation, however, indicated that it did not include required
certifications for all payroll records.




                                               43
                                      Attachment 4 (continued)
SECTION VI: SUB-GRANTEE'S RESPONSE (FULL TEXT)




                      44
                                         Attachment 4 (continued)
SECTION VI: SUB-GRANTEE'S RESPONSE (FULL TEXT) CONT.




                         45
                                         Attachment 4 (continued)
SECTION VI: SUB-GRANTEE'S RESPONSE (FULL TEXT) CONT.




                         46
                                         Attachment 4 (continued)
SECTION VI: SUB-GRANTEE'S RESPONSE (FULL TEXT) CONT.




                         47
                                         Attachment 4 (continued)
SECTION VI: SUB-GRANTEE'S RESPONSE (FULL TEXT) CONT.




                         48
                                         Attachment 4 (continued)


SECTION VI: SUB-GRANTEE'S RESPONSE (FULL TEXT) CONT.




                         49
                      Attachment 5
MANAGEMENT COMMENTS




        50
                                  Attachment 5 (continued)
MANAGEMENT COMMENTS (continued)




              51
                                  Attachment 5 (continued)
MANAGEMENT COMMENTS (continued)




              52
                                  Attachment 5 (continued)


MANAGEMENT COMMENTS (continued)




              53
                                  Attachment 5 (continued)


MANAGEMENT COMMENTS (continued)




              54
                                                                 IG Report No. OAS-RA-13-19


                          CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                         Date

Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                                    Department of Energy
                                   Washington, DC 20585

                                 ATTN: Customer Relations

    If you wish to discuss this report or your comments with a staff member of the Office of
                 Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

     Your comments would be appreciated and can be provided on the Customer Response
